April 9, 2008

TOM SAMRA
VICE PRESIDENT, FACILITIES

CAROLYN COLE
ACTING EXECUTIVE DIRECTOR, ENERGY INITIATIVES

SUBJECT: Audit Report – Facilities Energy Management Strategy
         (Report Number DA-AR-08-004)

This report presents the results of our self-initiated audit of the U.S. Postal Service
Facilities Energy Management Strategy (Project Number 07YG065DA000). Our
objective was to evaluate whether the Postal Service has an energy management
strategy for facilities to meet federal requirements. See Appendix A for additional
information on this audit.

Energy Management Planning, Policies, and Consumption Data

The Postal Service has a facilities energy management program to meet federal energy
requirements. However, expanding short-range planning, widening facility focus, and
updating energy policies would increase strategic effectiveness. In addition, the Postal
Service conducts energy reduction activities at its facilities and annually reports energy
reductions based on cost data, but does not systematically collect and use data on
actual energy consumption. Without systematically using actual consumption data, the
Postal Service cannot effectively establish baselines and priorities, measure progress,
or support the reported energy reductions at over 34,000 facilities. Consequently, the
Postal Service risks:

   •   Not complying with federal mandates to reduce energy consumption.
   •   Inaccurately reporting energy consumption data to the Department of Energy
       (DOE).

See Appendix B for our detailed analysis of this issue.
Facilities Energy Management Strategy                                        DA-AR-08-004



We recommend the Vice President, Facilities, in coordination with the Acting Executive
Director, Energy Initiatives:

1. Finalize and publish a National Energy Management Plan. This plan should
   establish a long-term vision and goals that encompass facilities referenced in the
   2007 Energy Independence and Security Act.

2. Update the Facility Energy Management Policy and Guide. This should clarify the
   organizational structure for carrying out energy management responsibilities.

3. Continue to develop systems for reporting actual energy consumption baselines and
   progressing toward energy reduction goals. In this regard, management should
   consider expanding electronic energy billing interfaces to collect actual energy
   consumption data or develop other long-term solutions.

Management’s Comments

Management agreed with the recommendations. In response to recommendation 1,
management plans to publish the National Energy Management Plan by August 1,
2008. To address recommendation 2, management plans to revise the Facility Energy
Management Policy and Guide by October 1, 2008, based on organizational changes
and new processes and procedures to perform work. Finally, in response to
recommendation 3, management plans to present a business case by August 1, 2008,
to support national expansion of the Utility Management System.

Management also provided information clarifying the legal interpretation of the Energy
Policy Acts of 1992 and 2005 and the 2007 Energy Independence and Security Act
(EISA) and how this legislation impacts the Postal Service. While acknowledging the
need for an overall 30 percent reduction in energy use by 2015, the Postal Service
maintains they are not obligated to comply with all aspects of the legislation since the
organization holds a unique status in the federal government. Specifically,
management believes EISA Sections 432 and 435, regarding assignment of an energy
manager at each facility and addressing leased facilities, respectively, are not
applicable to the Postal Service. Management further explained EISA Sections 517 and
435, regarding training contracting officers and requiring 75 percent energy coverage for
buildings, respectively, are subject to guidance the Department of Energy has yet to
develop.

We have included management’s comments in their entirety in Appendix D.




                                            2
Facilities Energy Management Strategy                                         DA-AR-08-004



Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations and the corrective
actions should resolve the issues identified in the report. We agree that the provisions
of the 2007 EISA that management references do not specifically apply to the Postal
Service. These provisions amend Section 543 of the National Energy Conservation
Policy Act, which only applies to the Postal Service to the extent the Postmaster
General is responsible for overseeing compliance with federal energy mandates. As
such, Congress left in place the requirement to follow energy consumption standards.

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. The OIG considers all
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick Donahoe
    Katherine S. Banks




                                            3
Facilities Energy Management Strategy                                            DA-AR-08-004




                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has over 34,000 facilities nationwide. During fiscal years (FY) 2006
and 2007, the Postal Service expended more than $600 million in utilities to support
operations in these facilities. When compared to all federal entities, the Postal Service
is the second largest consumer of energy after the Department of Defense (DOD).

Federal legislation designed to reduce energy consumption continues to affect the
Postal Service. In particular, the Energy Policy Acts (EPACT) of 1992 and 2005 require
the Postal Service to lower its energy consumption to specific goals. The 2007 EISA
expanded these requirements.1 Under the 1992 EPACT, the Postal Service was
required to reduce energy consumption by 20 percent through FY 2000, where
practicable, using a 1985 baseline. The 2005 EPACT and the 2007 EISA require,
collectively, a 30 percent reduction in consumption between 2006 and 2015 using a
2003 baseline. In response to energy legislation, the Postal Service annually reports
energy consumption reductions for its facilities to the Department of Energy (DOE).

In FY 2006, the Postal Service created a senior level energy position reporting directly
to the Deputy Postmaster General. The Executive Director of Energy Initiatives is
responsible for overall Postal Service energy reduction activities and works with vice
presidents, such as the Vice President of Facilities, to create and implement Postal
Service energy management strategies. Also in FY 2007, Facilities Management was
given the authority and responsibility to develop strategies and implement activities to
reduce energy consumption in the building inventory.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate whether the Postal Service has an energy management
strategy for facilities to meet federal requirements.

To accomplish our objective, we reviewed annual reports on energy management and
conservation programs and federal agencies’ energy scorecards, and interviewed
current and former managers responsible for the Postal Service’s Energy Management
Program. We also consulted the U.S. Postal Service OIG General Counsel on the
Postal Service’s obligations associated with federal legislation. In addition, we reviewed
electrical consumption data the Postal Service reported to the DOE.

Further, we reviewed data from the Accounting Data Mart to identify FY 2007 utility
costs and the Facilities Management Database to identify facility data useful to our


1
    Appendix C summarizes energy legislation applicable to the Postal Service.




                                                           4
Facilities Energy Management Strategy                                            DA-AR-08-004



audit. Previous OIG reports related to these systems did not reveal weaknesses that
would impact our audit.

We conducted this performance audit from September 2007 through April 2008 in
accordance with generally accepted government auditing standards and included tests
of internal controls that we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on February 14, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                              5
Facilities Energy Management Strategy                                                         DA-AR-08-004



                                 APPENDIX B: DETAILED ANALYSIS

Postal Service Can Strengthen Energy Planning

The Postal Service has a number of strategies and activities under way to reduce
energy consumption at its facilities. In November 2007, the Postal Service energy
initiatives team implemented a program with a supplier to collect utility energy cost and
consumption data at 500 of its largest facilities and 100 smaller ones. The team has
also contracted with suppliers to complete energy audits nationwide and begin
implementing actions to take advantage of identified energy conservation opportunities.

However, a long-term energy management plan does not exist. Without a long-term
energy management plan, the Postal Service cannot effectively maximize its energy
conservation efforts as required by the 2007 EISA. A long-term energy management
plan would set goals, identify a method for tracking reduced consumption, identify
project financing to accomplish goals, and measure performance.

The first phase of the Postal Service’s energy management strategy has included:

      •    Contracting with a vendor to successfully complete a pilot period of up to 1 year
           to capture actual cost and consumption data, improve bill management, and
           analyze rates and taxes paid. The targeted facilities account for 60 to 70 percent
           of utility energy costs.2

      •    Identifying and starting detailed energy audits for targeted facilities.

      •    Initiating development of an Enterprise Energy Management System. This
           system is intended to consolidate all energy information including actual meter
           and sub-meter information from the largest facilities.

      •    Upgrading design standards and instituting detailed operating procedures to
           ensure all new construction, repair, and alteration projects are as energy efficient
           as they are cost effective.

The 2007 EISA specifies energy reductions at a group of facilities that constitute 75
percent of energy use. While we recognize management’s efforts to improve energy
efficiency at its facilities, the Postal Service’s initial focus of reviewing the largest 500
sites accounts for only 60 to 70 percent of its utilities costs. These 500 sites represent
less than 2 percent of Postal Service-owned and leased facilities and 40 percent of the
total square footage of facilities. This focus may not allow the organization to reduce
energy use by 30 percent.



2
    The Postal Service estimates consumption based on costs rather than actual consumption.




                                                          6
Facilities Energy Management Strategy                                                             DA-AR-08-004



An OIG audit3 of energy activities in the Northern Virginia District noted many low or
no-cost opportunities for lowering energy consumption at facilities that are not part of
this initial site focus. While performing site walk-through inspections at facilities as
small as 11,000 square feet, we noted opportunities such as increasing energy
awareness, installing lighting sensors, and changing thermostat settings. We believe
that considerable potential exists to reduce energy at many facilities beyond the top 500
sites.

Internal Energy Policies Outdated

The Postal Service’s energy policies are outdated. Both the Facility Energy
Management Program Management Instruction (AS-550-97-4, dated June 1997) and
the Facility Energy Management Guide (AS-558, dated September 1998) reference
obsolete goals and responsibilities. Since the agency issued these policies, goals for
reducing energy consumption have changed because of new legislation. Also, the
responsibility for the Postal Service’s national energy program, including the
development of policies and plans, no longer resides with the Vice President,
Engineering.

National policies set the direction of the agency and reflect the level of commitment the
organization is willing to make. Without clearly defined policies, goals, measures, and
responsibilities, the Postal Service cannot assess its progress in reducing energy
consumption.

Reported Reductions in Energy Consumption Not Validated

In an effort to establish a repeatable and verifiable methodology, the Postal Service
changed its process for calculating consumption for the 2007 reporting period as well as
for prior years (back to 2003). The agency based its new methodology on standard
federal templates for completing a DOE report. This significantly changed the amount
of consumption reported in the last two annual reports, as shown in Table 1.




3
    Northern Virginia District Energy Management Savings (Report Number DA-AR-08-003, dated March 20, 2008).




                                                        7
Facilities Energy Management Strategy                                                      DA-AR-08-004




             Table 1. FYs 2006 and 2007 Annual Reports: Postal Service Facility Energy Usage

                  FY 2006          FY 2007             FY 2006          FY 2007        FY 2006     FY 2007
                  Energy            Energy         Facility Space    Facility Space    BTUs per    BTUs per
              Consumption        Consumption      (Millions Square       (MSF)          Gross        GSF
             (British Thermal       (BTU)            Feet-MSF)                          Square
               Units-BTU)                                                             Foot (GSF)
FY 2003           23,969             31,986             353               314             68         102
FY 2005           23,425             35,237             361               311             65         113
FY 2006           22,231             33,999             332               314             67         108
FY 2007                              27,938                               313                         89


Although this new methodology is repeatable and verifiable, it does not necessarily
provide an accurate representation of energy consumption. The Postal Service
calculates energy consumption as a cost per square foot, which may be misleading as
the per unit cost of energy will fluctuate over time, so this does not necessarily equate to
levels of consumption. In comparison, we noted the DOD captures actual meter
readings for its consumption data.

There were also significant changes in the amount of facility space reported in the 2007
Annual Report on Energy Management and Conservation Programs. The current
methodology uses the square footage from the facilities management database and the
Postal Service’s annual report. However, the basis for reporting facility square footage
in prior reports is not clear. According to Facilities personnel, sites were removed
because they were partially used and their inclusion would skew the results and show
the Postal Service as being more energy-efficient than it actually is.

Further, the Postal Service made significant changes in reporting cost per unit. Prior to
2007, the Postal Service calculated the estimated cost per unit on a regional basis
which was $.03 per kilowatt hour more than the federal average. Calculations in the
annual report used a federal average cost per unit provided by the DOE.

An indication of the fluctuations that can occur when using dollars spent to calculate
energy consumption can be seen in a comparison with actual consumption data for
Postal Service facilities in the state of Texas. We compared actual consumption with
estimated consumption data reported to the DOE and the cost calculated on a regional
basis. As shown in Table 2 below, this comparison reflected a difference ranging from 9
percent below actual consumption using the regional method, to 11.9 percent above
actual consumption using the federal average.




                                                   8
Facilities Energy Management Strategy                                                                     DA-AR-08-004



               Table 2. Comparison of Electrical Energy Consumption in Kilowatt Hours (KWHR)

                                       Invoice            Unit          KWHRs          Difference in           Percent
                                       Amount             Cost                            KWHRs             Difference in
                                                                                                               KWHRs
Actual Consumption for     $25,070,653                      $0.09    279,981,789
Facilities in the State of
Texas
Consumption Based on Regional Average                       $0.10    254,524,398          -25,457,391                  -9.09

Consumption Based on Federal Average                        $0.08    313,383,165           33,401,376                 11.93


The Postal Service also reported two energy credits4 as part of its energy reduction.
The first was an 8 percent credit in FY 2000 for increases in automation and the second
was a 4 percent credit in FY 2006 for installation of the Ventilation Filtration System
(VFS) and the Biohazard Detection System (BDS). This was also updated in the 2007
annual report to reflect a revised 1.5 percent credit for VFS and BDS. The Postal
Service could not provide supporting documentation for the 8 percent automation credit
taken in FY 2000 and the revised credit was based on estimates rather than actual
consumption.

Without accurate consumption data, the nationwide impact for energy reduction cannot
be validated. In addition, the Postal Service cannot accurately determine whether its
strategy or activities are achieving approximately 3 percent5 annual reductions to keep
pace with federal legislation.

Opportunity to Collect Actual National Consumption Data

The Postal Service has not collected actual consumption data systematically on a
national basis since updates to the Energy Consumption System ended in 1992. During
the audit, we noted that energy providers can send electronic consumption data through
an electronic data interchange and the Postal Service can store this data in its eBuy
system.6 However, the Postal Service has not taken full advantage of this opportunity
for all of its sites. At the time of our review, the eBuy database listed 44 utility providers.
Nationwide, the Postal Service made payments to 7,349 utility providers and less than 1
percent of these providers accounted for approximately 65 percent of utility payments,
averaging $22.5 million monthly for the first three quarters in FY 2007. The Postal
Service could require or negotiate an electronic data interface (EDI) from at least its
largest energy suppliers.



4
  Energy credits are adjustments provided for the increase in energy consumption through new or increased
automation or an increase in facility space.
5
  The Postal Service has 10 years (2006-2015) to reduce consumption by 30 percent when considering the 2005
EPACT and the 2007 EISA, or approximately 3 percent per year.
6
  eBuy is an all-electronic purchasing system developed for the Postal Service. It includes electronic utility invoicing
and payment.




                                                            9
Facilities Energy Management Strategy                                      DA-AR-08-004



We recognize the Postal Service has contracted for data collection primarily at its
500 largest sites. Expanding EDI could provide a low-cost alternative for consumption
data at a larger universe of sites.




                                          10
Facilities Energy Management Strategy                                              DA-AR-08-004




                                 APPENDIX C
                  SUMMARY – ENERGY MANAGEMENT LEGISLATION


Energy Policy Act of 1992

•   Specifically mentions the Postal Service.

•   Calls for a 20 percent energy reduction at facilities through FY 2000.

•   Section 166 subjected the Postal Service to the same requirements as other federal
    agencies in Section 543 of the National Energy Conservation Policy Act (NECPA).

•   Energy initiatives are to be implemented to the maximum extent practical.

Energy Policy Act of 2005

•   Amended many provisions of building energy requirements.

•   Set energy reduction goals to 20 percent between 2006 and 2015.

Energy Independence and Security Act of 2007

•   Passed before the Postal Service implemented many of the 2005 EPACT
    recommendations.

•   Section 431 expands energy reduction goals to 30 percent between 2006 and 2015.

•   Section 432 amends NECPA Section 543 to require each federal agency to
    designate a federal energy manager responsible to reduce energy use at each
    facility that is included in a group of facilities that constitute 75 percent of the energy
    use at the agency. The energy manager shall complete a comprehensive energy
    and water evaluation study for 25 percent of the facilities within the 75 percent
    energy usage group each calendar year. The energy manager will use a
    web-based certification process the DOE established for the identified facilities.

•   Section 435 states that, 3 years after enactment, no federal agency may lease
    space that is not Energy Star labeled unless there is no space available that meets
    the functional needs of the agency.

•   Section 517 requires training for agency contracting officers in (1) negotiating energy
    savings performance contracts, (2) concluding effective and timely contracts for
    energy efficiency services with all companies offering these services, and (3)




                                               11
Facilities Energy Management Strategy                                         DA-AR-08-004



   reviewing federal contracts for all products and services for the potential energy
   efficiency opportunities and implications of the contracts.




                                            12
Facilities Energy Management Strategy                      DA-AR-08-004



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                        13
Facilities Energy Management Strategy        DA-AR-08-004




                                        14
Facilities Energy Management Strategy        DA-AR-08-004




                                        15
